CERTIFICATE OF SERVICE
I hereby certify that I have this date served a copy of this Petition For Writ Of
Certiorari to the following persons by placing a copy of the same in the United
States Mail this 22nd day of May, 2020.
Joseph W. Adams, Esq.
Adams & Spivey
1278 Andrews Ave.
Ozark, Alabama 36360
(334) 774-5533
Leon Merrill Shirley, Esq.
431 North Court Street
Post Office Box 408
Elba, Alabama, 36323
(334) 897-5775
Co-counsel of Record for Respondents:
William O. Bray and Teresa V. Bray

I declare under penalty of perjury that the foregoing is true and correct.
DATED this 22nd day of May, 2020.

Robert L. Vaughn, Jr. aka Judson Vaughn
Pro se Counsel for the Petitioner
924 Hidden Cove Drive
Ball Ground, Georgia 30107
(404) 683-3572
JudsonVaughn@FirstImpressionsHQ.com

